                                   National Science Foundation
                                     420 1 Wilson Boulevard
                                    Arlington, Virginia 22230


Office of Inspector General


MEMORANDUM

Date:

To:           Mary F. Santonastasso, Director
              Division of Institution and Award Support

Thru:          Jannifer Jenkins


From:


Subject:       Audit Report No. OIG-09- 1-001
               Education Development Center, Inc.


Attached is the final audit report, prepared by Cotton & Company LLP, an independent public
accounting firm, on the audit of NSF award numbers ESI-0323098, EHR-0335384, ESI-0099093,
and ESI-0353368 awarded to Education Development Center, Inc. (EDC). The audit covers NSF-
funded costs claimed from September 1, 2001 to September 30, 2007, aggregating to approximately
$14.2 million of NSF direct funded costs and $5 17,830 o f claimed cost sharing. EDC was chosen
for an audit because of the high dollar and number of NSF awards, the collaborative nature of many
EDC awards, and the material internal control deficiencies reported in past OIG and OMB Circular
A-133 audits. Our audit determined that EDC has made significant improvements in financial
administrative controls since the prior audits performed in years 1999 and 2004; however some
additional improvements are still needed.

Overall the auditors determined' that except for $3,346 or .02 percent of the $14.2 million total
claimed costs on EDC's Schedules of Award Costs are allowable, allocable and reasonable for the
NSF awards. The $3,346 in questioned costs include $1,392 of unsupported meal costs and $47 of
associated indirect costs for NSF Award Nos. ESI-0323098 and EHR-0335384; and questioned
costs of $2,999 for excessive and unreasonable meal costs for NSF Award No. ESI-0323098 (of
which $1,092 was questioned as part of the $1,392 of meal costs previously stated). These
questioned costs were reported as participant support, other direct costs, and indirect costs on
EDC's Schedules of Award Costs.

The auditor's identified three compliance deficiencies of which the first was also an internal control
deficiency in EDC's financial management practice.         The latter two compliance deficiencies
contributed to the questioned costs and the third compliance deficiency was previously identified
and reported in a prior NSF OIG audit report. Specifically:

       EDC did not perform adequate fiscal monitoring on subaward costs it charged to the
       National Science Foundation (NSF) awards to ensure that subawardee expenditures incurred
       and claimed were allowable, allocable, and reasonable. EDC does not have a formal plan
       for monitoring subawardees such as obtaining supporting documentation, performing site
       visits, or reviewing audit reports. EDC does not perform any analysis such as a risk
       assessment of its subawardees to determine which monitoring procedures should be
       performed for each subgrantee. EDC relies on the controls at the subawardees to ensure that
       subawardee costs are reasonable, allowable, and allocable to the NSF awards. As a result,
       EDC's internal controls over subaward costs provide no assurance that the expenditures
       incurred and claimed are accurate, valid, allowable and adequately documented. Required
       routine subaward monitoring could prevent or identify unallowable claimed subaward costs.
       The four NSF awards included nine subawards amounting to $1.3 million or 9% of the total
       costs charged to the NSF awards. We validated claimed subaward costs by performing
       alternative audit tests, including obtaining supporting documentation directly from the
       subawardees.

       EDC did not maintain adequate documentation to support meal costs claimed on NSF
       Award Nos. ESI-0323098 and EHR-0335384. During our review of participant support
       costs and other direct costs, we found seven transactions totaling $1,392 that were not
       supported by adequate documentation in the form of itemized receipts. This occurred
       because EDC did not have a formal policy which required itemized receipts for meal costs.
       As a result, EDC's lack of adequate supporting documentation increases the risk that some
       of the costs claimed by EDC may be unallowable, unreasonable, or not allocable to the NSF
       awards. We questioned $1,392 of participant support and other direct costs, and, $47 of
       associated indirect costs.

       EDC did not have controls over determining the reasonableness of meal costs charged to
       NSF Award No. ESI-0323098. During our review of participant support costs we found
       four transactions for $2,999 for meal costs claimed for conferences that appear excessive.
       This occurred because EDC's current procedures did not include adequate provisions for
       determining reasonableness of meal costs associated with participant events. As a result,
       there is increased risk that some of the costs claimed by EDC may be unallowable,
       unreasonable, or not allocable to the NSF award. We questioned $2,999 of participant
       support costs of which $1,092 was previously questioned above. This is a repeat finding
       that was reported in NSF OIG Report No. 00-1-003 (dated March 27, 2000) where the
       auditors questioned $44,509 in food costs associated with meetings and conferences that
       were determined to be unreasonable.

To address these compliance and internal control deficiencies, we recommend that your office
direct EDC to (1) develop and implement a formal subaward monitoring plan to ensure that costs
are reasonable, allowable, and allocable to the NSF awards; (2) ensure that claimed costs are
supported with itemized receipts; and (3) revise its policies and procedures to document how
reasonableness of meal costs on a per person basis is determined to ensure that claimed meal costs
are not excessive and are in accordance with Federal travel requirements.
EDC concurred with the report findings and indicated that it was taking corrective actions to
develop and implement a formal subaward monitoring program and ensure that claimed costs are
supported with itemized receipts. EDC agreed that meal costs should be reasonable. However,
EDC did not adequately address revising its policies and procedures to include a reasonableness
determination for meals on a per person basis.

Given the systemic and continuing nature of these compliance and internal control deficiencies we
believe the same deficiencies may exist under EDCYsother 35 NSF awards, and if not corrected,
will impact hture NSF awards. Please coordinate with our office during the six month resolution
period, as specified by OMB Circular A-50, to develop a mutually agreeable resolution of the audit
findings. Also, the findings should not be closed until NSF determines that all recommendations
have been adequately addressed and the proposed corrective actions have been satisfactorily
implemented.

We are providing a copy of this memorandum to the Division Director and Program Directors in
Education & Human Resources (EHR) and the Director of the Division of Grants and Agreements
(DGA). The responsibility for audit resolution rests with the Division of Institution and Award
Support, Cost Analysis and Audit Resolution Branch (CAAR). Accordingly, we ask that no action
be taken concerning the report's findings without first consulting CAAR at 703-292-8244.

OIG Oversight of Audit

To hlfill our responsibilities under Government Auditing Standards, the Office of Inspector General:

       Reviewed Cotton & Company's approach and planning of the audit;

       Evaluated the qualifications and independence of the auditors;

       Monitored the progress of the audit at key points;

       Coordinated periodic meetings with Cotton & Company and NSF officials, as necessary, to
       discuss audit progress, findings, and recommendations;

       Reviewed the audit report, prepared by Cotton & Company to ensure compliance with
       Government Auditing Standards and the NSF OIG Audit Guide; and

       Coordinated issuance of the audit report.

Cotton & Company is responsible for the attached auditor's report on EDC and the conclusions
expressed in the report. We do not express any opinion on the Schedules of Award Costs, internal
control, or conclusions on compliance with laws and regulations.
We thank your staff for the assistance that was extended to our auditors during this audit. If you
have any questions regarding this report, please contact me at 703-292-4989.


Attachment

cc: Joan Ferrini-Mundy, Division Director, EHR/DRL
    David Ucko, Deputy Division Director, EHR/DRL
    Janice Earle, Program Director, EHlUDRL
    Robert Gibbs, Program Director, EHlUDRL
    Michael Haney, Program Director, EHlUDRL
    Karen Tiplady, Director, DGA
       EDUCATION DEVELOPMENT CENTER, INC.
  55 CHAPEL STREET, NEWTON, MASSACHUSETTS


NATIONAL SCIENCE FOUNDATION AWARD NUMBERS
                 ESI-0323098
                 EHR-0335384
                 ESI-0099093
                 ESI-0353368

FINANCIAL AUDIT OF FINANCIAL SCHEDULES AND
       INDEPENDENT AUDITORS’ REPORTS
             FOR THE PERIOD OF
    SEPTEMBER 1, 2001 TO SEPTEMBER 30, 2007




                                  Cotton & Company LLP
                                  635 Slaters Lane, 4th Floor
                                  Alexandria, Virginia 22314
This page intentionally left blank
                                    EXECUTIVE SUMMARY


An audit was performed on $14,250,467 of federal costs claimed and $517,830 in cost sharing
claimed as reported on the September 30, 2007 Federal Cash Transactions Reports (FCTR)
submitted to the National Science Foundation (NSF) by Education Development Center, Inc.
(EDC) on NSF award numbers ESI-0323098, EHR-0335384, ESI-0099093, and ESI-0353368.
EDC is an international non-profit organization that conducts and applies research to advance
learning and promotes health. EDC was chosen for an audit because of the high dollar and
number of NSF awards, the collaborative nature of many awards, the large amount of expended
NSF funds, and the material internal control deficiencies reported in past OIG and OMB A-133
audits. Our audit determined that EDC has made significant improvements in financial
administrative controls since the prior audits performed in years 1999 and 2004; however some
additional improvements are still needed.

We found that except for $3,346 (0.02% of $14,250,467 in total claimed costs) in questioned
participant support, other direct costs, and indirect costs the costs claimed by EDC under NSF
award numbers ESI-0323098, EHR-0335384, ESI-0099093, and ESI-0353368, including
subaward costs, appear fairly stated and are allowable, allocable and reasonable for the NSF
awards.

Specifically, we questioned $1,392 of meal costs and $47 of associated indirect costs. EDC did
not maintain itemized receipts or any other form of supporting documentation to adequately
support meal costs charged as participant support costs and associated indirect costs to NSF
Awards No. ESI-0323098 and EHR-0335384. In addition, we questioned $2,999 of excessive
and unreasonable meal costs charged to ESI-0323098, including $1,092 that are questioned
above. This issue was previously reported in NSF OIG Report No. 00-1-003 (dated March 27,
2000) where the auditors questioned $44,509 in food costs associated with meetings and
conferences that were determined excessive.

We also noted three compliance deficiencies of which the first was also an internal control
deficiency in EDC’s financial management practice. The latter two compliance deficiencies
contributed to the questioned costs. Specifically:

   •   EDC did not perform adequate fiscal monitoring on subaward costs it charged to the
       National Science Foundation (NSF) awards to ensure that subawardee expenditures
       incurred and claimed were allowable, allocable, and reasonable. EDC does not have a
       formal plan for monitoring subawardees such as obtaining supporting documentation,
       performing site visits, or reviewing audit reports. EDC does not perform any analysis
       such as a risk assessment of its subawardees to determine which monitoring procedures
       should be performed for each subgrantee. EDC relies on the controls at the subawardees
       to ensure that subawardee costs are reasonable, allowable, and allocable to the NSF
       awards. As a result, EDC’s internal controls over subaward costs provide no assurance
       that the expenditures incurred and claimed are accurate, valid, allowable, and adequately
       documented.      Required routine subaward monitoring could prevent or identify
       unallowable claimed subaward costs. The four NSF awards included nine subawards
       amounting to $1.3 million or 9% of the total costs charged to the NSF awards. We
       validated claimed subaward costs by performing alternative audit tests, including
       obtaining supporting documentation directly from the subawardees.

   •   EDC did not maintain adequate documentation to support meal costs claimed on NSF
       Award Nos. ESI-0323098 and EHR-0335384. During our review of participant support
       costs and other direct costs, we found seven transactions totaling $1,392 that were not
       supported by adequate documentation in the form of itemized receipts. This occurred
       because EDC did not have a formal policy, which required itemized receipts for meal
       costs. As a result, EDC’s lack of adequate supporting documentation increases the risk
       that some of the costs claimed by EDC may be unallowable, unreasonable, or not
       allocable to the NSF awards. We questioned $1,392 of participant support and other
       direct costs, and, $47 of associated indirect costs.

   •   EDC did not have controls over determining the reasonableness of meal costs charged to
       NSF Award No. ESI-0323098. During our review of participant support costs, we found
       four transactions for $2,999 for meal costs claimed for conferences that appear excessive.
       This occurred because EDC‘s current procedures did not include adequate provisions for
       determining reasonableness of meal costs associated with participant events. As a result,
       there is increased risk that some of the costs claimed by EDC may be unallowable,
       unreasonable, or not allocable to the NSF award. We questioned $2,999 of participant
       support costs. This is a repeat finding that was reported in NSF OIG Report No. 00-1-
       003 (dated March 27, 2000) where the auditors questioned $44,509 in food costs
       associated with meetings and conferences that were determined excessive.

EDC currently has approximately 35 additional NSF awards. While we did not assess the impact
of these noncompliance and internal control deficiencies on those awards, we believe the same
deficiencies may exist under those programs and, if not corrected, will impact future NSF
awards.

To address these instances of compliance and internal control deficiencies, we recommend that
the Director of NSF’s Division of Institution and Award Support (DIAS), direct EDC to (1)
develop and implement a formal subaward monitoring plan to ensure that costs are reasonable,
allowable, and allocable to the NSF awards; (2) ensure that claimed costs are supported with
itemized receipts; and (3) revise its policies and procedures to document how reasonableness of
meal costs on a per person basis is determined to ensure that claimed meal costs are not
excessive and are in accordance with Federal travel requirements..

The findings in this report should not be closed until NSF has determined that all the
recommendations have been adequately addressed and the proposed corrective actions have been
implemented. EDC’s response will be included in its entirety in Appendix A.

For a complete discussion of audit findings, refer to the Independent Auditors’ Report on
Internal Control Over Financial Reporting and on Compliance and Other Matters Based on an
Audit of Financial Schedules Performed in Accordance with Government Auditing Standards.
                                       EDUCATION DEVELOPMENT CENTER, INC.


                                                    TABLE OF CONTENTS

                                                                                                                                         Page

Executive Summary:

Table of Contents:

Introduction:
   Background .....................................................................................................................................    1
   Audit Objectives, Scope and Methodology ....................................................................................                        3

Internal Controls and Compliance:
    Independent Auditors’ Report on Internal Control over Financial Reporting and on
     Compliance and Other Matters Based on an Audit of Financial Schedules Performed in
     Accordance with Government Auditing Standards.......................................................................                              5

Financial Schedules and Supplemental Information:
   Independent Auditors’ Report on Financial Schedules ..................................................................                             14
   Schedule A-1– Schedule of Award Costs (Award No. ESI-0323098) ...........................................                                          17
   Schedule A-2 – Schedule of Award Costs (Award No. EHR-0335384) ........................................                                            18
   Schedule A-3 – Schedule of Award Costs (Award No. ESI–0099093) ..........................................                                          19
   Schedule A-4 – Schedule of Award Costs (Award No. ESI-0353368)...........................................                                          20
   Schedule B – Schedule of Questioned Costs Explanations………….............................................                                            21
   Schedule C – Summary Schedule of Awards Audited and Audit Results………… ......................                                                       22
   Notes to Financial Schedules………… ..........................................................................................                        24

Appendices
  Appendix A – Auditee’s Comments to Report
  Appendix B – Prior Audit Findings
  Appendix C – Exit Conference
INTRODUCTION
BACKGROUND

We audited funds awarded by the National Science Foundation (NSF) to EDC as follows:

           Award Number                      Award Period                    Audit Period

            ESI-0323098                  10/01/03 – 09/30/08              10/01/03-09/30/07
            EHR-0335384                  10/01/03 – 09/30/08              10/01/03-09/30/07
            ESI–0099093                  09/01/01 – 02/28/07              09/01/01-02/28/07
            ESI-0353368                  07/01/04 – 06/30/08              07/01/04-09/30/07


EDC, as a Federal awardee, is required to follow the cost principles specified in Office of
Management and Budget (OMB) Circular A-122, Cost Principles for Non-Profit Organizations,
and the Federal administrative requirements contained in 2 CFR–215-Uniform Administrative
Requirements for Grants and Agreements with Institutions of Higher Education, Hospitals, and
Other Non-Profit Organizations (OMB Circular A-110 has been incorporated into 2 CFR 215).

EDC is an international, non-profit organization located in Newton, Massachusetts that conducts
and applies research to advance learning and promotes health. EDC currently manages 335
projects in 50 countries.

NSF chose EDC for an audit because of the high dollar and number of NSF awards, the
collaborative nature of many awards, the large amount of expended NSF funds, and the material
internal control deficiencies reported in past OIG and OMB Circular A-133 audits, as follows:

     •   As of August 10, 2006, EDC had 35 active NSF awards totaling over $59 million.
         Seventeen of the active awardees are funded at over $1,000,000 each. Some of the
         active and pending proposals for NSF awardees include proposals involving
         collaborations (i.e. group of universities, non-profit organizations, and/or contractors
         working together on a common initiative with one or more of the organizations
         functioning as the coordinator of all financial administration) or sub-awards to or from
         other institutions funded by NSF. Collaborative awards often have high inherent audit
         risk concerns because of the challenges the awardees face to adequately monitor and
         account for NSF award funds. In addition, many of the collaborating parties have
         various administrative and financial systems in place, which may or may not have
         adequate internal control, authorization, communication, and award management
         processes in operation to ensure that the funds are spent in accordance with NSF and
         Federal requirements and in support of the NSF programs.

     •   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                                               1
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

EDC has made improvements in financial administrative controls since the 1999 and 2004 audits
were performed. Some of the improvements made include establishing an Office of Sponsored
Projects for overall management of EDC projects, hired key financial management personnel to
strengthen financial controls and oversee fiscal operations, and, developed and implemented
effective policies and procedures in areas where deficiencies were noted in prior audits.

Descriptions of the NSF awards we audited are as follows:

ESI–0323098 – The Information Technology Experiences for Students and Teachers
(ITEST) Resource Center. NSF awarded ESI–0323098 to the ITEST Resource Center, for the
period October 1, 2003 through September 30, 2008 in the amount of $5,836,227. NSF funds
will be used to establish the Learning Center to assist ITEST projects, both Youth and
Comprehensive, in achieving goals. It provides help in implementing best practices and building
on achievements to produce knowledge that can be shared among projects and to the broader
community. The project goals include: to provide technical assistance opportunities, to address
special needs of women, minorities, and underrepresented populations, studying effects of IT
training in different environments, to develop ITEST as a primary source of information on IT in
STEM education, outreach and building grantee technology to use IT as a tool for learning and to
lead others. The award includes a subaward to Mathematica Policy Research Associates Inc
(MPR) for $xxxxxxx and Learning Times for $ xxxxxxx.

Cumulative expenditures for award number ESI–0323098 reported to NSF through September
30, 2007 were $4,515,073.

EHR–0335384 – Leadership Content Knowledge and Mathematics Instructional Quality in
the Math and Science Partnerships: A Study of Elementary and Middle School Principals.
NSF awarded ESI–0335384 to EDC for the period October 1, 2003 through September 30, 2008
in the amount of $5,388,141. NSF funds will be used for a large scale research and technical
assistance project that investigates elementary and middle school principals’ knowledge of
mathematics and beliefs about teaching and learning through the construct of leadership content
knowledge and its effect on their practices of classroom observation and teacher supervision. It
addresses topics of teacher retention, challenging courses and curriculum, and sustainability.
The award includes subawards to the CNA Corporation for $ xxxxxxx and to Temple University
for $ xxxxxxx.


                                               2
Cumulative expenditures for award number ESI–0335384 reported to NSF through September
30, 2007 were $3,228,021.

ESI–0099093 – Learning by Doing: A Mathematics Curriculum for Elementary School
Children and Their Teachers. NSF awarded ESI–0099093 to EDC for the period September 1,
2001 through February 28, 2007 in the amount of $5,131,410, with a cost-sharing requirement of
$255,000. NSF funds will be used to provide a high quality mathematics curriculum aligned
with national standards that promote student understanding and is acceptable to a wide range of
elementary school teachers. The second purpose is to advance teachers’ mathematical
understanding as they teach and to accomplish this goal without the additional cost of extensive
professional development, through the right kinds of curriculum materials that can help improve
teachers’ understanding of mathematics. The award will also establish the Learning Center to
assist ITEST Youth and Comprehensive projects in achieving goals. The award includes
approximately $362,606 budgeted for consultants and subcontracts, an evaluation subcontract to
SUNY Buffalo for $ xxxxxx, and a subcontract to Western Michigan University to study the
impact of math workshops in school for $ xxxxxxx.

Cumulative expenditures for award number ESI–0099093 reported to NSF through September
30, 2007 were $5,130,722.

ESI–0353368 – Connecting Science and Literacy Program: Professional Development
Resources for Elementary Teachers. NSF awarded ESI–0353368 to EDC for the period July
1, 2004 through June 30, 2008 in the amount of $2,099,304. NSF funds will be used to develop
nine multi-media professional development resources that will enhance PreK-8 teachers’
understanding of how to employ instructional strategies from the field of literacy in developing
student’s scientific understanding. The budget for this award includes approximately $455,040
in sub-award costs for program evaluation and literacy content. Program Evaluation is carried
out by Leslie University’s Program Evaluation and Research Group for $180,000. Literacy
Content for the project is performed by Tufts University Center for Applied Child Development
for $ xxxxxxx. The planning, recording, and editing of educational video materials from
elementary schools throughout the Boston area is carried out by David Smith Productions for
$ xxxxxx.

Cumulative expenditures for award number ESI–0353368 reported to NSF through September
30, 2007 were $1,376,831.



AUDIT OBJECTIVES, SCOPE AND METHODOLOGY

The objectives of our audit were to:

     1. Determine the status of EDC’s corrective actions related to OMB Circular A-133 audits
        for fiscal years 2003 through 2006, and determine whether conditions that resulted in
        questioned costs in a prior NSF OIG audit have been corrected.

                                               3
     2. Determine whether EDC’s Schedules of Award Costs (Schedules A-1 to A-4) present
        fairly in all material respects, the costs claimed on the Federal Cash Transactions
        Reports (FCTR), and if the costs claimed, including cost share are in conformity with
        Federal and NSF terms and conditions.

     3. Identify matters concerning instances of noncompliance with laws, regulations, and the
        provisions of the award agreement(s) pertaining to NSF awards and weaknesses in
        EDC’s internal control over financial reporting that could have a direct and material
        effect on the Schedules of Award Costs (Schedules A-1 to A-4) and EDC’s ability to
        properly administer, account for, and monitor its NSF awards.

     4. Determine whether the costs incurred under subcontracts, awarded by EDC to David
        Smith Productions, Lesley University, Tufts University, The CNA Corporation, Temple
        University, MPR Associates, Learning Times, SUNY, and Western Michigan
        University are documented and allowable under the terms and conditions of the
        subcontract agreements, NSF and Federal regulations.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government Auditing
Standards (2007 Revision) issued by the Comptroller General of the United States, and the
guidance provided in the National Science Foundation OIG Audit Guide (August 2007), as
applicable. These standards and the NSF OIG Audit Guide require that we plan and perform the
audit to obtain reasonable assurance about whether amounts claimed to NSF as presented in the
Schedules of Award Costs (Schedules A-1 to A-4) are free of material misstatements. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures in the
Schedules of Award Costs. An audit also includes assessing the accounting principles used and
the significant estimates made by EDC, as well as evaluating the overall financial schedule
presentation. We believe that our audit provides a reasonable basis for our opinion.




                                               4
INTERNAL CONTROLS AND
     COMPLIANCE
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


                INDEPENDENT AUDITORS’ REPORT ON
  INTERNAL CONTROL OVER FINANCIAL REPORTING AND ON COMPLIANCE
    AND OTHER MATTERS BASED ON AN AUDIT OF FINANCIAL SCHEDULES
  PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS

We have audited costs claimed as presented in the Schedules of Award Costs (Schedules A-1 to
A-4), which summarize financial reports submitted by EDC to the National Science Foundation
(NSF) and claimed cost sharing for the awards and periods listed below and have issued our
report thereon dated July 31, 2008.

            Award Number                     Award Period                    Audit Period

            ESI-0323098                   10/01/03 – 09/30/08             10/01/03-09/30/07
            EHR-0335384                   10/01/03 – 09/30/08             10/01/03-09/30/07
            ESI–0099093                   09/01/01 – 02/28/07             09/01/01-02/28/07
            ESI-0353368                   07/01/04 – 06/30/08             07/01/04-09/30/07


We conducted our audit of the Schedules of Award Costs as presented in Schedules A-1 to A-4
in accordance with auditing standards generally accepted in the United States of America, the
standards applicable to financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States (2007 revision), and the guidance provided in the
National Science Foundation OIG Audit Guide (August 2007), as applicable.


INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit of the Schedules of Award Costs (Schedules A-1 to A-4)
for the period September 1, 2001 to September 30, 2007, we considered EDC’s internal control
over financial reporting as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the financial schedule, but not for the purpose of expressing an
opinion on the effectiveness of EDC’s internal control over financial reporting. Accordingly, we
do not express an opinion on the effectiveness of EDC’s internal control over financial reporting.

                                                5
Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraph and would not necessarily identify all deficiencies in
internal control over financial reporting that might be significant deficiencies or material
weaknesses. However, as discussed below, we identified a deficiency in internal control over
financial reporting that we consider a significant deficiency.

A control deficiency exists when the design or operation of a control does not allow management
or employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements in a timely basis. A significant deficiency is a control deficiency, or combination
of control deficiencies, that adversely affects the entity’s ability to initiate, authorize, record,
process, or report financial data reliably in accordance with generally accepted accounting
principles such that there is more than a remote likelihood that a misstatement of EDC’s
financial schedule that is more than inconsequential will not be prevented or detected by EDC’s
internal control. We consider the deficiency described below in Finding No. 1 to be a significant
deficiency in internal control over financial reporting.

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial schedules
will not be prevented or detected by EDC’s internal control.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and would not necessarily identify all deficiencies
in the internal control that might be significant deficiencies and, accordingly, would not
necessarily disclose all significant deficiencies that are also considered to be material
weaknesses. However, we do not believe any of the findings noted below are material
weaknesses.


COMPLIANCE WITH LAWS AND REGULATIONS AND OTHER MATTERS

As part of obtaining reasonable assurance about whether EDC’s financial schedules are free of
material misstatement, we performed tests of EDC’s compliance with certain provisions of
applicable laws, regulations, and NSF award terms and conditions, noncompliance with which
could have a direct and material effect on the determination of financial schedule amounts.
However, providing an opinion on compliance with those provisions was not an objective of our
audit, and accordingly, we do not express such an opinion. The results of our tests of compliance
disclosed three instances of noncompliance that are required to be reported under Government
Auditing Standards and the National Science Foundation OIG Audit Guide and are described in
Finding Nos. 1 through 3 below.

EDC’s response to the findings identified in our audit are described after each finding and are
included in its entirety in Appendix A. We have not audited EDC’s response and, accordingly,
we express no opinion on it.




                                                 6
FINDINGS AND RECOMMENDATIONS

Finding 1. Lack of Adequate Fiscal Monitoring of Subawardees

EDC did not perform adequate fiscal monitoring on subaward costs it charged to the National
Science Foundation (NSF) awards to ensure that subawardee expenditures incurred and claimed
were allowable, allocable, and reasonable. EDC does not have a formal plan for monitoring
subawardees such as obtaining supporting documentation, performing site visits, or reviewing
audit reports. EDC does not perform any analysis such as a risk assessment of its subawardees to
determine which monitoring procedures should be performed for each subgrantee. Instead, EDC
relies on the controls at the subawardees to ensure that subawardee costs are reasonable,
allowable, and allocable to the NSF awards. As a result, EDC’s internal controls over subaward
costs provide no assurance that the expenditures incurred and claimed are accurate, valid,
allowable, and adequately documented. Required routine subaward monitoring could prevent or
identify unallowable claimed subaward costs.

2 CFR-215, Uniform Administrative Requirements for Grants and Agreements with Institutions
of Higher Education, Hospitals, and Other Non-Profit Organizations (OMB Circular A-110),
Subpart C, Section .51(a), states:

       Recipients are responsible for managing and monitoring each project, program,
       subaward, function, or activity supported by the award.

Further, OMB Circular A-133, Audits of States, Local Governments, and Non-Profit
Organizations, Subpart D, Section 400(d.3) – Pass-Through Entity Responsibilities, states:

       A pass-through entity shall perform the following for the Federal awards it
       makes:… (3) Monitor the activities of subrecipients as necessary to ensure that
       Federal awards are used for authorized purposes in compliance with laws,
       regulations, and the provisions of contracts or grant agreements and that
       performance goals are achieved.

During the award selection process, there is no verification of financial management systems or
understanding subgrantee controls (such as review of annual audit reports or questionnaires).
During the subaward process, Office of Sponsored Projects initiates a contract with the
subgrantee; however, there is no verification of the adequacy of the subgrantee’s financial
management system (such as interviews, accounting system documentation, etc). During the
performance period, EDC does not perform site visits, request sample supporting documentation
(such as timesheets or other receipts), or compare rates per the award to rates shown on the
invoice. Finally, during close out, there is no reconciliation or final review of claimed costs.

EDC’s Project Management Handbook states that the Project Director reviews the invoices to be
sure that the expenditures are correct, appropriate, provided for in the budget, and within
subaward terms such as project periods. The Project Director’s signature on an invoice signifies
EDC’s acceptance of the subawardee’s services and the accuracy and allowability of the
expenses invoiced. However, the Project Director does not receive any documentation to


                                               7
support claimed costs, such as timesheets or receipts for direct costs in order to perform this
review. The approved invoice is forwarded to the accounts payable department, where the
project dates and mathematical accuracy are verified, along with ensuring program office
approval. Therefore, no one in the program office or accounts payable reviews supporting
documentation, such as timesheets and invoices, or verifies that other contract requirements for
costs such as consultants, subsistence, travel, indirect costs are being met.

EDC could improve their subaward monitoring process by including a risk-based process to
assess the risk of their subawards to determine the level of subawardee oversight necessary.
They could also perform site visits or conduct other programmatic reviews to oversee the
progress of ongoing work and review completed tasks; and, review A-133 audit reports, internal
inspection programs, quality control reviews, and other types of compliance requirements of the
subawardees. A formal subaward monitoring plan and routine subaward monitoring could
prevent or identify unallowable subaward costs claimed for NSF awards.

EDC is an international, non-profit organization that currently manages 335 projects in 50
countries. Some of these projects include numerous subawards made to various organizations
throughout the world. EDC’s lack of adequate subawardee fiscal monitoring could lead to NSF
funds being used for purposes other than those intended under EDC’s NSF awards. The lack of
adequate subawardee fiscal monitoring increases the risk that some subawardee costs claimed or
cost-shared by EDC may be unallowable, unreasonable, or unallocable to NSF awards. Our
audit procedures could not rely on EDC’s controls to validate subaward costs included in the
audit scope. The four NSF awards included nine subawards amounting to $1.3 million or 9% of
the total costs charged to the NSF awards. In order to validate the subaward charges we
performed alternative audit tests, which included obtaining supporting documentation directly
from the subawardees for the four awards. Claimed costs tested were supported as allowable and
reasonable for the NSF awards.

Recommendation 1:

We recommend that NSF’s Director of the Division of Institution and Award Support require
EDC to develop and implement a formal subaward monitoring plan to ensure that costs are
reasonable, allowable, and allocable to the NSF awards. The monitoring plan should include
procedures such as desk reviews and site visits.


Awardee’s Comments

EDC agrees and will make improvements to its existing subaward monitoring process throughout
the life cycle of the award in accordance with OMB Circulars A-110 and
A-133 to ensure claimed costs are reasonable, allowable, and allocable.


Auditor’s Response




                                               8
EDC’s comments do not address the specific improvements to be made to its current subaward
monitoring process. We recommend that NSF’s Director of the Division of Institution and
Award Support require EDC to submit a formal subaward monitoring plan for NSF approval.
The monitoring plan should include the following:

   •   EDC’s process for determining the amount of oversight necessary on each subaward;
   •   Specific procedures to be performed in desk reviews, site visits, and other monitoring
       activities;
   •   Corrective action plans for addressing deficiencies identified in monitoring; and
   •   Documentation to be retained as evidence of EDC’s subaward monitoring.

This report finding should not be closed until NSF determines that the proposed corrective
actions have been satisfactory implemented.


Finding 2. Insufficient Documentation to Support Claimed Meal Costs

EDC did not maintain adequate documentation to support meal costs claimed on NSF Award
Nos. ESI-0323098 and EHR-0335384. During our review of participant support costs and other
direct costs, we found seven transactions totaling $1,392 that were not supported by adequate
documentation in the form of itemized receipts. This occurred because EDC did not have a
formal policy which required itemized receipts for meal costs. As a result, EDC’s lack of
adequate supporting documentation increases the risk that some of the costs claimed by EDC
may be unallowable, unreasonable, or not allocable to the NSF awards. We questioned $1,392
of participant support and other direct costs, and, $47 of associated indirect costs.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A.2, Factors
affecting allowability of costs, states that an award cost must be adequately documented to be
allowable. Further, without itemized receipts, we could not determine EDC’s compliance with
NSF award requirements and OMB Circular A-122 requirements, such as the exclusion of
alcoholic beverages from claimed costs.

Specifically, during our review of participant support and other associated direct costs, we found
seven transactions for meal costs claimed for several conferences and business meetings related
to program participants. Costs were only supported by either monthly credit card statements or
the credit card receipt that only documents the total of the bill. These claimed costs were not
supported by itemized receipts or any other form of documentation as support for the expenses
incurred under the NSF awards as indicated below:




                                                9
   Grant    Cost Category      Date                         Description                Amount
  0323098    Participant     07/28/05   Dinner on trip to ITEST NECC conference           $124
               Support
  0323098    Participant     10/27/05   Dinner for meeting with project evaluator.          36
               Support
  0323098       Other        10/27/05   Dinner for meeting with project evaluator.          36
  0323098     Participant    02/22/06   Dinner for annual ITEST project meeting           1,092
               Support
  0323098       Other        09/30/06   Working dinner with NSF program officer             35
  0335384       Other        06/21/06   Breakfast meeting for TMI project meeting           22
  0335384       Other        01/26/06   Lunch for Lessons on Learning training class        47

                                        Total                                            $1,392


According to EDC representatives, even though EDC did not have a formal policy regarding
itemized receipts for meal costs, EDC project staff were cognizant about the NSF’s guidelines
for meal expenses and alcohol and established project-based procedures covering any occasions
where alcohol is ordered by participants during project-related events. The procedures include
providing a cash bar during banquets, reviewing written guidelines in advance of project
activities, and monitoring each other at various group events. In addition, EDC representatives
stated that the working agenda for the Annual ITEST Summit Birds of Feathers dinner included
instructions for handling alcoholic beverages purchased during the dinner. Per EDC, “Each
group has a Learning Resource Center (LRC) staff member assigned-that person is responsible
for meeting with participants, going to a restaurant and picking up the tab (please make sure
alcohol is put on a separate bill paid by all who partake, as we cannot use Federal funds for
alcohol).”

EDC did not initially have a policy for obtaining itemized receipts for meal costs. The current
Controller identified a problem with a lack of itemized receipts shortly after his arrival in
December 2005, and in 2006, he established an informal policy requiring itemized receipts for
meal costs. This policy was formalized in 2007 when an accounts payable procedure requiring
itemized receipts was issued.

Since EDC did not maintain sufficient documentation to support meal expenditures claimed
within the audit period, there is no assurance that they are allowable, allocable, or reasonable in
accordance with applicable Federal and NSF regulations. Therefore, we questioned $1,392 of
participant support and other direct costs and $47 of associated indirect costs.

Recommendation 2:

We recommend that NSF’s Director of the Division of Institution and Award Support require
EDC to support claimed costs with proper supporting documentation including itemized receipts
and other forms of proof for all NSF awards.


Awardee’s Comments

                                                 10
EDC agrees with this recommendation, and a formal EDC-wide policy requiring itemized
receipts for meal costs had already been established prior to commencement of this audit. EDC
policy clearly reflects NSF guidelines for reimbursement of meal expenses.


Auditor’s Response

We consider EDC’s comments to be responsive to the recommendation.

This report finding should not be closed until NSF determines that the proposed corrective
actions have been satisfactory implemented.

Finding 3. Unreasonable Meals Costs Claimed

EDC did not have controls over determining the reasonableness of meal costs charged to NSF
Award No. ESI-0323098. During our review of participant support costs we found four
transactions for $2,999 for meal costs claimed for conferences that appear excessive when
compared to Federal travel regulations. This occurred because EDC‘s procedures did not include
adequate provisions for determining reasonableness of meal costs associated with participant
events. As a result, there is increased risk that some of the costs claimed by EDC may be
unallowable, unreasonable, or not allocable to the NSF award. We questioned $2,999 of
participant support costs. This is a repeat finding that was reported in NSF OIG Report No. 00-
1-003(dated March 27, 2000) where the auditors questioned $44,509 in food costs associated
with meetings and conferences that were determined excessive.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A, A.3
Reasonable costs, states, a cost is reasonable in its nature or amount, if it does not exceed what
would be incurred by a prudent person under the same circumstances. Further, National Science
Foundation, Award and Administration Guide, Chapter V-Allowability of Costs, C.5. Meetings
and Conferences states costs charged to NSF awards need to be reasonable.

Specifically, during our review of participant support costs, we found four transactions for meal
costs claimed for several conferences that appear excessive when taking into account the number
of attendees. The price per person of the four dinners ranged from $36 to $71 per person as
indicated below:

                                                                                         Price
                  Cost                                                      No. of        Per
    Grant      Category        Date          Description          Amount   Attendees    Person
   0323098     Participant   03/01/05   NSF Summit Dinner          $509        14         $36
                Support
   0323098     Participant   03/02/06   ITEST PI Summit Meal       900         20         45
                Support
   0323098     Participant   02/22/06   Dinner for Annual ITEST    1,092       21         52
                Support                 Project Meeting
   0323098     Participant   03/31/05   ITEST Project Dinner       498         7          71
                Support
                                        Total                     $2,999


                                                 11
EDC considered these costs reasonable because the costs were associated with the Birds of a
Feather (BOF) dinners, an annual ITEST Summit activity approved by the NSF program officers
responsible for the ITEST program. In addition, EDC budgets for the annual BOF dinners as a
single banquet event for Summit participants with the understanding that each group’s final bill
can vary without exceeding the overall budget for this event. Since the EDC did not exceed its
budget, EDC believes that costs were reasonable.

EDC attempts to minimize the cost of the meals by pre-selecting the restaurant venues. EDC’s
pre-selection process includes reviewing restaurant menus and eliminating any restaurants that
are determined to be high cost. Other factors EDC considers when selecting a restaurant include
shortest distance from the conference hotel, layout of restaurant and table sizes, participant
dietary requirements, and, participant meal preferences. However, there are several factors
involved in the selection process that EDC feels they do not have total control of such as various
menu prices at the selected restaurants for ordering an appetizer, entrée, coffee, and desert; and,
fixed fees and charges associated with large groups that can vary from restaurant to restaurant.

While EDC has established certain procedures to minimize the costs of meals, there is still a
need for a policy that requires a reasonableness determination for meals on a per person basis for
participant events. The policy should include provisions for determining the reasonableness of
meal charges on a per person basis, and, a clear definition and understanding of the term
reasonableness as it applies to meal costs for participant events.

Since EDC did not establish the reasonableness of meal expenditures claimed, there is no
assurance that they are accurate, allowable, allocable, or reasonable in accordance with
applicable Federal and NSF regulations. We questioned $2,999 of unreasonable meal costs, of
which $1,092 were previously questioned in Finding 2.

Recommendation 3:

We recommend that NSF’s Director of the Division of Institution and Award Support require
EDC to revise its policies and procedures to document how reasonableness of meal costs on a per
person basis is determined, and, provide guidance to program offices regarding the allowability
and documentation requirements for meal costs for participant events.

Awardee’s Comments

EDC agrees, per OMB Circular A-122, costs should be reasonable in nature and amount, and
should not exceed what a prudent person would pay under the same circumstances. Although, as
stated in the report, we have instituted various vetting methods to ensure costs are reasonable, we
will better publicize the policy to program offices.


Auditor’s Response




                                                12
While EDC’s comments are partially responsive to the audit recommendation, EDC did not
address recommended policy changes for assessing and documenting the reasonableness of meal
costs on a per person basis. We consider this policy guidance essential for EDC program
offices’ use in establishing and ensuring the allowability and reasonableness of meal costs for
participant events. We recommend that the NSF Director of the Division of Institution and
Award Support require EDC to revise its current policy to include this guidance.

This report finding should not be closed until NSF determines that the proposed corrective
actions have been satisfactory implemented.

This report is intended solely for the information and use of EDC’s management, the National
Science Foundation, EDC’s Federal Cognizant Audit Agency, the Office of Management and
Budget, and the Congress of the United States and is not intended to be and should not be used
by anyone other than those specified parties.


COTTON & COMPANY LLP



xxxxxxxxxxxxxxxxxxxxx
xxxxxxxxx

July 31, 2008




                                              13
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


         INDEPENDENT AUDITORS’ REPORT ON FINANCIAL SCHEDULES

We have audited the costs claimed by the Education Development Center (EDC) to the National
Science Foundation (NSF) on the Federal Cash Transactions Reports (FCTRs) for the NSF
awards listed below. In addition, we audited the amount of cost sharing claimed on NSF Award
No. ESI-0099093. The FCTRs, as presented in the Schedules of Award Costs (Schedules A-1 to
A-4), are the responsibility of EDC’s management. Our responsibility is to express an opinion
on the Schedules of Award Costs (Schedules A-1 to A-4) based on our audit.

            Award Number                    Award Period                    Audit Period

            ESI-0323098                  10/01/03 – 09/30/08             10/01/03-09/30/07
            EHR-0335384                  10/01/03 – 09/30/08             10/01/03-09/30/07
            ESI–0099093                  09/01/01 – 02/28/07             09/01/01-02/28/07
            ESI-0353368                  07/01/04 – 06/30/08             07/01/04-09/30/07


We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States (2007 revision), and the
guidance provided in the National Science Foundation OIG Audit Guide (August 2007), as
applicable. These standards and the National Science Foundation OIG Audit Guide, require that
we plan and perform the audit to obtain reasonable assurance that the amounts claimed to NSF as
presented in the Schedules of Award Costs (Schedules A-1 to A-4) are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the Schedules of Award Costs (Schedules A-1 to A-4). An audit also includes
assessing the accounting principles used and the significant estimates made by EDC’s
management, as well as evaluating the overall financial schedule presentation. We believe our
audit provides a reasonable basis for our opinion. The Schedule of Questioned Cost


                                              14
Explanations (Schedule B) explains the $3,346 (0.02%) of total claimed NSF funds that we have
questioned as to their allowability under the award agreements. These questioned costs include
unallowable participant support, other direct costs, and indirect costs.

Questioned costs are (1) costs for which documentation exists to show that recorded costs were
expended in violation of laws, regulations, or specific award conditions, (2) costs that require
additional support by the awardee, or (3) costs that require interpretation of allowability by the
National Science Foundation – Division of Institution and Award Support (DIAS). NSF will
make the final determination of cost allowability. The ultimate outcome of this determination
cannot presently be determined. Accordingly, no adjustment has been made to costs claimed for
any potential disallowance by NSF.

In our opinion, except for the $3,346 of questioned NSF-funded costs, the Schedules of Award
Costs (Schedules A-1 to A-4) referred to above present fairly, in all material respects, the costs
claimed on the FCTRs for the period September 1, 2001 to September 30, 2007 in conformity
with the provisions of the National Science Foundation OIG Audit Guide, NSF Grant Policy
Manual, terms and conditions of the NSF award and on the basis of accounting described in the
Notes to the Financial Schedules, which is a comprehensive basis of accounting other than
generally accepted accounting principles. This schedule is not intended to be a complete
presentation of financial position of EDC in conformity with accounting principles generally
accepted in the United States of America.

In accordance with Government Auditing Standards, and guidance provided in the National
Science Foundation OIG Audit Guide, we have also issued a report dated July 31, 2008, on our
consideration of EDC’s internal control over financial reporting and our tests of EDC’s
compliance with certain provisions of laws, regulations, and NSF award terms and conditions
and other matters. The purpose of that report is to describe the scope of our testing over internal
control over financial reporting and compliance and the results of that testing, and not to provide
an opinion on the internal control over financial reporting or on compliance. That report is an
integral part of an audit performed in accordance with Government Auditing Standards and
should be read in conjunction with this report in considering the results of our audit.




                                                15
This report is intended solely for the information and use of EDC’s management, NSF, EDC’s
Federal cognizant agency, Office of Management and Budget, and the Congress of the United
States of America, and is not intended to be, and should not be used by anyone other than these
specified parties.

COTTON & COMPANY LLP

xxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxx

July 31, 2008




                                              16
                                                                                   Schedule A-1

                              Education Development Center
                 National Science Foundation Award Number ESI–0323098
                                  Schedule of Award Costs
                                         (Interim)



                                  Approved     Claimed        Questioned     Note
             Cost Category         Budget      Costs (A)        Costs      Reference
          Direct Costs:
          Salaries & Wages        $xxxxxxxx    xxxxxxxx
          Fringe Benefits          Xxxxxxxx    Xxxxxxxx
          Equipment                Xxxxxxxx    Xxxxxxxx
          Travel                   Xxxxxxxx    Xxxxxxxx
          Participant Support      Xxxxxxxx    Xxxxxxxx           $3,159   B-1 & B-2
          Other Direct Costs:      Xxxxxxxx    Xxxxxxxx
          Material & Supplies      Xxxxxxxx    Xxxxxxxx
          Publication              Xxxxxxxx    Xxxxxxxx
          Consulting               Xxxxxxxx    Xxxxxxxx
          Computer Services        Xxxxxxxx    Xxxxxxxx
          Subaward                 Xxxxxxxx    Xxxxxxxx
          Other                    Xxxxxxxx    Xxxxxxxx               71     B-1

             Total Direct Costs   $4,624,478   $3,578,733         $3,230

          Indirect Costs           1,211,749        936,340           24     B-3

             Total                $5,836,227   $4,515,073         $3,254


(A) - The total claimed costs agrees with the total expenditures reported by EDC on the Federal
Cash Transaction Report - Federal Share of Net Disbursements as of the quarter ended
September 30, 2007. Claimed costs reported above are taken from the awardee's books of
accounts.

See Accompanying Notes to this Financial Schedule.




                                               17
                                                                                  Schedule A-2

                              Education Development Center
                National Science Foundation Award Number EHR–0335384
                                 Schedule of Award Costs
                                         Interim


                                  Approved     Claimed     Questioned      Note
              Cost Category        Budget      Costs (A)     Costs       Reference
          Direct Costs:
          Salaries & Wages        Xxxxxxxx     Xxxxxxxx
          Fringe Benefits         Xxxxxxxx     Xxxxxxxx
          Equipment               Xxxxxxxx     Xxxxxxxx
          Travel                  Xxxxxxxx     Xxxxxxxx
          Participant Support     Xxxxxxxx     Xxxxxxxx
          Other Direct Costs:     Xxxxxxxx     Xxxxxxxx
          Material & Supplies     Xxxxxxxx     Xxxxxxxx
          Publication             Xxxxxxxx     Xxxxxxxx
          Consulting              Xxxxxxxx     Xxxxxxxx
          Subawards               Xxxxxxxx     Xxxxxxxx
          Other                   Xxxxxxxx     Xxxxxxxx           $69       B-1

             Total Direct Costs   $4,367,369 $2,659,148

          Indirect Costs          $1,020,772    $592,915          $23       B-3

          Program Income                       ($24,042)

             Total                $5,388,141 $3,228,021           $92

(A) - The total claimed costs agrees with the total expenditures reported by EDC on the Federal
Cash Transaction Report - Federal Share of Net Disbursements as of the quarter ended
September 30, 2007. Claimed costs reported above are taken from the awardee's books of
accounts.

See Accompanying Notes to this Financial Schedule.




                                               18
                                                                                 Schedule A-3

                              Education Development Center
                 National Science Foundation Award Number ESI–0099093
                          Schedule A-3 – Schedule of Award Costs
                                          (Final)


                                  Approved     Claimed      Questioned     Note
              Cost Category        Budget      Costs (A)      Costs      Reference
          Direct Costs:
          Salaries & Wages        Xxxxxxxx Xxxxxxxx
          Fringe Benefits         Xxxxxxxx Xxxxxxxx
          Equipment               Xxxxxxxx Xxxxxxxx
          Travel                  Xxxxxxxx Xxxxxxxx
          Participant Support     Xxxxxxxx Xxxxxxxx
          Other Direct Costs:     Xxxxxxxx Xxxxxxxx
          Material & Supplies     Xxxxxxxx Xxxxxxxx
          Publication             Xxxxxxxx Xxxxxxxx
          Consulting              Xxxxxxxx Xxxxxxxx
          Subawards               Xxxxxxxx Xxxxxxxx
          Other                   Xxxxxxxx Xxxxxxxx

             Total Direct Costs   $3,921,164   $3,894,003

          Indirect Costs          $1,210,246   $1,236,319

             Total                $5,131,410   $5,130,722
          Cost Sharing             $255,000     $517,830

(A) - The total claimed costs agrees with the total expenditures reported by EDC on the Federal
Cash Transaction Report - Federal Share of Net Disbursements as of the quarter ended
September 30, 2007. Claimed costs reported above are taken from the awardee's books of
accounts.

See Accompanying Notes to this Financial Schedule.




                                               19
                                                                                   Schedule A-4

                              Education Development Center
                 National Science Foundation Award Number ESI-0353368
                          Schedule A-4 – Schedule of Award Costs
                                         (Interim)



                                  Approved     Claimed      Questioned         Note
             Cost Category         Budget      Costs (A)      Costs          Reference
         Direct Costs:
         Salaries & Wages          Xxxxxxxx    Xxxxxxxx
         Fringe Benefits           Xxxxxxxx    Xxxxxxxx
         Equipment                 Xxxxxxxx    Xxxxxxxx
         Travel                    Xxxxxxxx    Xxxxxxxx
         Participant Support       Xxxxxxxx    Xxxxxxxx
         Other Direct Costs:
         Material & Supplies       Xxxxxxxx    Xxxxxxxx
         Publication               Xxxxxxxx    Xxxxxxxx
         Consulting                Xxxxxxxx    Xxxxxxxx                  `
         Subawards                 Xxxxxxxx    Xxxxxxxx
         Other                     Xxxxxxxx    Xxxxxxxx

            Total Direct Costs    $1,667,999   $1,105,828

         Indirect Costs             $431,305    $287,703

         Program Income                         ($16,700)

            Total                 $2,099,304   $1,376,831

(A) - The total claimed costs agrees with the total expenditures reported by EDC on the Federal
Cash Transaction Report - Federal Share of Net Disbursements as of the quarter ended
September 30, 2007. Claimed costs reported above are taken from the awardee's books of
accounts.

See Accompanying Notes to this Financial Schedule.




                                               20
                                                                             SCHEDULE B


                       EDUCATION DEVELOPMENT CENTER INC.
                   NATIONAL SCIENCE FOUNDATION AWARD NUMBERS
                                       ESI-0323098
                                       EHR-0335384
                          Schedule of Questioned Cost Explanations
                        From September 1, 2001 to September 30, 2007

           Amount
              Of
  Note    Questioned
Reference   Costs                       Explanation of Questioned Costs
Note B-1    $1,392   Participant Support Costs and Other Costs
                     EDC claimed seven transactions where meal costs were not supported
                     by itemized receipts. Without itemized receipts, we could not determine
                     the allowability and reasonableness of the costs or EDC’s compliance
                     with NSF award requirements and OMB Circular A-122, including the
                     requirements for alcoholic beverages. EDC did not have a policy for
                     obtaining itemized receipts for meal costs and a policy was not
                     formalized until 2007. (See Finding and Recommendation No. 2 in the
                     Independent Auditors’ Report on Internal Control over Financial
                     Reporting and on Compliance and Other Matters.)
                  1
Note B-2   $2,999    Participant Support
                     EDC claimed four transactions where meal costs incurred during
                     program dinners were unreasonable on a per person basis. EDC
                     considered these costs reasonable because the costs were associated with
                     the annual ITEST Summit activity approved by the NSF program
                     officers and because the total costs of all the dinners did not exceed the
                     overall budget for the event. (See Finding and Recommendation No. 3
                     in the Independent Auditors’ Report on Internal Control Over Financial
                     Reporting and on Compliance and Other Matters.)
Note B-3      47     Indirect Costs
                      Questioned other direct costs in Note B-1 resulted in $47 of questioned
                      indirect costs.




1
    $1,092 of costs questioned here were also questioned in Note B-1.



                                                 20
                                                                            SCHEDULE C
                 EDUCATION DEVELOPMENT CENTER INC.
               Summary Schedule of Awards Audited and Audit Results
                  From September 1, 2001 to September 30, 2007


Summary of Awards Audited

   Award Number       Award Period               Audit Period
   ESI-0323098      10/01/03 – 09/30/08        10/01/03-09/30/07
   EHR-0335384      10/01/03 – 09/30/08        10/01/03-09/30/07
   ESI-0099093      09/01/01 – 02/28/07        09/01/01-02/28/07
   ESI-0353368      07/01/04 – 06/30/08        07/01/04-09/30/07

    Award Number     Type of Award                           Award Description
     ESI-0323098         Grant            NSF funds will be used to establish the ITEST
                                          Learning Center. It assists ITEST projects, both Youth
                                          and Comprehensive, in achieving goals. It also
                                          provides help in implementing best practices and
                                          building on achievements to produce knowledge that
                                          can be shared among projects and to the broader
                                          community.
     EHR-0335384            Grant         NSF funds will be used for a large scale research and
                                          technical assistance project that investigates elementary
                                          and middle school principals’ knowledge of
                                          mathematics and beliefs about teaching and learning
                                          through the construct of leadership content knowledge
                                          and its effect on their practices of classroom
                                          observation and teacher supervision.
     ESI-0099093            Grant         NSF funds will be used to provide a high quality
                                          mathematics curriculum aligned with national
                                          standards that promote student understanding and is
                                          acceptable to a wide range of elementary school
                                          teachers. In addition, the funds will be used to advance
                                          teachers’ mathematical understanding as they teach
                                          without the additional cost of extensive professional
                                          development. The award will also establish the ITEST
                                          Learning Center to assist ITEST Youth and
                                          Comprehensive projects in achieving goals.
     ESI-0353368            Grant         NSF funds will be used to develop nine multi-media
                                          professional development resources that will enhance
                                          PreK-8 teachers’ understanding of how to employ
                                          instructional strategies from the field of literacy in
                                          developing students’ scientific understanding.




                                          21
                                                                          SCHEDULE C


                    EDUCATION DEVELOPMENT CENTER INC.
                  Summary Schedule of Awards Audited and Audit Results
                     From September 1, 2001 to September 30, 2007

                                       (Continued)

Summary of Questioned Costs by Award

                                          Claimed         Questioned
    Award Number        Award Budget       Costs            Costs
    ESI-0323098           $5,836,227     $4,515,073           $3,254
    EHR-0335384            5,388,141      3,228,021               92
    ESI-0099093            5,131,410      5,130,722                0
    ESI-0353368            2,099,304      1,376,831                0
         Total           $18,455,082    $14,250,647           $3,346

                                         Claimed          Questioned
     Cost Sharing       Award Budget      Costs             Costs
    ESI-0099093          $ 255,000      $ 517,830        $0
         Total           $ 255,000      $ 517,830                 $0

Summary of Questioned Cost by Explanation

                               Questioned
            Category             Costs            Internal Controls    Non-Compliance
   Salaries and Wages                   -               N/A                 N/A
   Fringe Benefits                      -               N/A                 N/A
   Equipment                            -               N/A                 N/A
   Travel                               -               N/A                 N/A
   Participant Support            $3,159                N/A                 Yes
   Material & Supplies                                  N/A                 N/A
   Publication                           -              N/A                 N/A
   Consulting                            -              N/A                 N/A
   Computer Services                     -              N/A                 N/A
   Subcontractors                        -              N/A                 N/A
   Other Direct Costs                  140              N/A                 Yes
   Indirect Costs                       47              N/A                 Yes
   Cost Sharing Shortfall                -              N/A                 N/A




                                             22
                                                                                 SCHEDULE C


                     EDUCATION DEVELOPMENT CENTER INC.
                   Summary Schedule of Awards Audited and Audit Results
                      From September 1, 2001 to September 30, 2007

                                          (Continued)


Summary of Non-Compliance and Internal Control Findings

                                                                   Amount of        Amount of
                       Non-Compliance                              Questioned        Claimed/
                            and/or        Significant   Material     Costs        Incurred Costs
        Findings       Internal Control   Deficiency    Weakness    Affected         Affected
   Lack of Adequate    Non-Compliance        Yes          No                $0        $1,341,536
   Fiscal Monitoring      and Internal
   of Subawardees           Control

   Insufficient        Non-Compliance         No          No           $1,439          $230,778
   Documentation to      and Internal
   Support Claimed         Control
   Meal Costs
   Reasonableness of   Non-Compliance         No          No           $1,907          $230,778
   Claimed Meal          and Internal
   Costs                   Control




                                              23
                     EDUCATION DEVELOPMENT CENTER INC.
                              Notes to Financial Schedules
                      From September 1, 2001 to September 30, 2007


Note 1: Summary of Significant Accounting Policies

        Accounting Basis
        The accompanying financial schedules have been prepared in conformity with National
        Science Foundation (NSF) instructions, which are based on a comprehensive basis of
        accounting other than generally accepted accounting principles. Schedules A-1 through
        A-4 have been prepared by EDC from the Federal Cash Transactions Reports (FCTRs)
        submitted to NSF and EDC’s accounting records. The basis of accounting utilized in
        preparation of these reports differs from generally accepted accounting principles. The
        following information summarizes these differences:

          A. Equity
              Under the terms of the award, all funds not expended according to the award
              agreement and budgeted at the end of the award period are to be returned to NSF.
              Therefore, the awardee does not maintain any equity in the award and any excess
              cash received from NSF over final expenditures is due back to NSF.

          B. Inventory
              Minor materials and supplies are charged to expense during the period of
              purchase. As a result, no inventory is recognized for these items in the financial
              schedule.

        The departure from generally accepted accounting principles allows NSF to properly
        monitor and track actual expenditures incurred by the Grantee. The departure does not
        constitute a material weakness in internal controls.


        Income Taxes

        EDC is a non-profit organization exempt from federal income taxes under Section
        501(c)(3) of the United States Internal Revenue Code.




                                             24
                    EDUCATION DEVELOPMENT CENTER INC.
                             Notes to Financial Schedules
                     From September 1, 2001 to September 30, 2007

                                        (Continued)


Note 2: NSF Cost Sharing and Matching
        The following represents the cost share requirement and actual cost share as of
        February 28, 2007:
                                Cost Share        Actual Cost Share       Over/(Under)
           Award Number         Required              Provided              Claimed
            ESI-0099093          $255,000             $517,830             $262,830


Note 3: Indirect Cost Rates

             Fiscal Year      Indirect Cost Rate                      Base
                01-02               xxx%            Total Direct Costs excluding
                02-03               xxx %           capital expenditures (buildings,
                03-04               xxx %           individual items of equipment,
                04-05               xxx %           alterations, renovations),
                05-06               xxx %           participant support, and
                06-07               xxx %           subawards.




                                             25
APPENDIX A - AUDITEE’S COMMENTS
           TO REPORT
From: xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Sent: Wednesday, December 17, 2008 12:17 PM
To: xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Subject: NSF audit-EDC responses

Xxxxxx,

I am attaching EDC’s responses to be incorporated into the report.

Please let me know if you need anything else.

Xxxxx




XxxxxXxxxxXxxxx
XxxxxXxxxxXxxxxXxxxx
Education Development Center, Inc.
55 Chapel Street
Newton, MA 02458
XxxxxXxxxxXxxxx
XxxxxXxxxxXxxxx
XxxxxXxxxxXxxxx
APPENDIX B – PRIOR AUDIT FINDINGS
                                                                                    APPENDIX B
PRIOR AUDIT FINDINGS

A prior NSF OIG audit report disclosed questioned costs for unnecessary meal costs, excessive
lodging and travel costs, and unallowable subcontract costs. This audit report on NSF award
numbers ESI-9254479, ESI-9550038, ESI-9617369, ESI-9617783, and ESI-9627091, issued by
M.D. Oppenheim & Company P.C. for the period 08/01/93 through 06/30/99, identified two
material findings for lack of supporting documentation and cost sharing deficiencies and
questioned costs for excessive food at staff meetings and conferences, and unallowable
subawardee costs.

   •   The previous audit report identified missing supporting documentation. In this audit,
       EDC provided supporting documentation for 194 of 196 sampled transactions. The total
       costs for the two transactions without supporting documentation equaled one dollar.

   •   The previous audit report identified weaknesses in verifying the value of third party cost
       sharing expenditures, particularly the participant support labor and related travel
       expenditures. EDC implemented the recommendation to add that verification step to
       their procedures. In this audit, cost sharing expenditures claimed for the award under our
       review did not include any third party expenditures.

   •   The previous audit report identified questioned costs for excessive food at staff meetings
       and conferences. EDC believed that the food costs questioned in the previous audit were
       not excessive. In this audit, sampled invoices pertaining to costs incurred for food at staff
       meetings and conferences were within the amounts budgeted per the grant. However,
       EDC claimed $2,999 in meal costs that were unreasonable on a per person basis when
       taking into account the number of attendees. (See Finding and Recommendation No. 3 in
       the Independent Auditors’ Report on Internal Control Over Financial Reporting and on
       Compliance and Other Matters).

   •   The previous audit report identified unallowable subawardee costs. In this audit, sampled
       invoices pertaining to subcontract costs were ultimately found to be reasonable, allocable,
       and allowable. However, alternative audit procedures had to be performed to verify the
       subawardee costs, which included the auditors obtaining documentation from the
       subawardees. EDC did not perform adequate fiscal monitoring on subaward costs it
       charged to the NSF awards nor does it not have a formal plan for monitoring subawardee
       costs. (See Finding and Recommendation No.1 in the Independent Auditors’ Report on
       Internal Control Over Financial Reporting and on Compliance and Other Matters).

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

EDC has made improvements in financial administrative controls since the 1999 and 2004 audits
were performed. These include:

    •   Establishing an Office of Sponsored Projects for overall management of EDC projects.
    •   Hiring key financial management personnel to strengthen financial controls and oversee
        fiscal operations, and,
    •   Developing and implementing effective policies and procedures in areas where
        deficiencies were noted in prior audits.

Specifically, EDC has established and implemented policies and procedure for account
reconciliations. In addition, EDC hired a Controller who oversees the day-to-day accounting
operations of the international accounting, compliance, accounts payable, and payroll functions.
Allocation rates are established at the beginning of the year and are compared to the actual rates
calculated at the end of the year. Any adjustments are made in the cost pool for the following
year. Finally, EDC started using a journal entry log in 2005 to record all adjusting journal
entries. EDC did not have any findings in its OMB Circular A-133 audit reports for fiscal years
2003, 2005, and 2006.
APPENDIX C – EXIT CONFERENCE
                                                                         APPENDIX C


EXIT CONFERENCE

We conducted an exit conference with EDC on December 3, 2008. We discussed preliminary
findings and recommendations noted during the audit. Representing EDC were:

        Name                     Title
    XXXXXXXXXXX          XXXXXXXXXXX
    XXXXXXXXXXX          XXXXXXXXXXX


Representing Cotton & Company LLP were:

        Name                     Title
    XXXXXXXXXXX          XXXXXXXXXXX
    XXXXXXXXXXX          XXXXXXXXXXX
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

             Internet
          www.oig.nsf.gov

           Email Hotline
           oig@nsf.gov

            Telephone
           703-292-7100

             Toll-free
          1-800-428-2189


               Fax
           703-292-9158


                 Mail
     Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
        Arlington, VA 22230
